USCA11 Case: 21-12485

Date Filed: 09/01/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W,
Atlanta, Georgia 30303
For rules and forms visit
www.cal I.uscourts-gov

David J. Smith
Clerk of Court

September 01, 2021
Clerk - Middle District of Florida
U.S. District Court
801 N FLORIDA AVE
TAMPA, FL 33602-3849
Appeal Number: 21-12485-J
Case Style: USA v. Gregory Darst
District Court Docket No: 8:13-cr-00181-MSS-TBM-l
The referenced appeal was dismissed on 08/31/2021.
This appeal has been clerically reinstated in light of appellant's payment of the required
docketing and filing fee paid prior to this court's dismissal.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Davina C Bumey-Smith, J
Phone #: (404) 335-6183
REINST-1 Appeal Reinstated

USCA11 Case: 21-12485

Date Filed: 08/31/2021

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 21-12485-J

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
GREGORY ALBERT DARST
Defendant - Appellant.

Appeal from the United States District Court
for the Middle District of Florida
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Gregory Albert Darst failed to pay the filing and
docketing fees to the district court, or alternatively, file a motion to proceed in forma pauperis in
the district court within the time fixed by the rules, effective August 31, 2021.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Davina C Bumey-Smith, J, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case 8:13-cr-00181-MSS-TBM Document 128 Filed 07/14/21 Page 1 of 2 PagelD 943

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
UNITED STATES OF AMERICA
CASE NO: 8:13-cr-181-MSS-TBM

v.
GREGORY ALBERT DARST

ORDER
THIS CAUSE is before the Court on Defendant Gregory Darst’s
Second/Renewed Motion to Close Improvidently Opened Civil Case 8:21-cv-1292.
(Dkt. 126) On May 26, 2021, the Court directed the Clerk to docket Darst’s Motion
for Coram Nobis (Dkt. 118) and Motion to Compel Production in Support of Motion
for Coram Nobis (Dkt. 119) in a new civil case. (Dkt. 120) Darst then filed a motion
seeking to close the civil case and reinstate his Motions in the criminal case. (Dkt. 121)
In denying that request, the Court explained that Darst’s Motion for Coram Nobis
similar to a petition for relief under 18 U.S.C. § 2255, is a further step in the movant’s
criminal case but is properly docketed as a separate civil case pursuant to the Court’s
internal administrative procedures. (Dkt. 123) For that same reason, Darst’s
Second/Renewed Motion to Close Improvidentiy Opened Civil Case 8:21-cv-1292,
(Dkt. 126), is DENIED.
Darst has also filed a Second Motion to Compel Production of Certain
Documents, (Dkt. 125), after the Court denied his first Motion to Compel without
prejudice in the civil case. The Clerk is directed to TERMINATE the Second Motion

Case 8:13-cr-00181-MSS-TBM Document 128 Filed 07/14/21 Page 2 of 2 PagelD 944

to Compel, (Dkt. 125), in the instant action and docket it in Civil Case No. 8:21-cv1292-MSS-JSS. The Court will consider the Second Motion to Compel, along with
Darst’s Motion for Coram Nobis, and rule on those matters in Civil Case No. 8:21-cv1292-MSS-JSS. Any further filings related to Darst’s Motion for Coram Nobis should
be docketed in the civil case, and any renewed motion by Darst to close the civil case
and proceed in the criminal case on his request for Coram Nobis relief will be
STRICKEN.
DONE and ORDERED in Tampa, Florida, this 14th day of July 2021.

MARYvS SGRIV£N"
UNITED STATES DISTRICT JUDGE

Copies to:
Counsel of Record

-2-

